I*

No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY- PETITIONER
VS.
SHARIF TARPIN - RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

THE SUPREME COURT OF THE UNITED STATES OF CALIFORNIA

PETITION FOR WRIT OF CERTIORARI

CARINA CONERLY

1501 AMAZON AVENUE

SACRAMENTO, CALIFORNIA 95835

(916) 529-0812 or (916) 704-6755

RECEIVED
JUN - 9 2021

QUESTION(S) PRESENTED
1. WHETHER, video cameras used in public are protected by The United States
Constitution, especially when applying and exercising under the 1st Amendment’s
Protected Rights of The United States Constitution?
2. WHETHER, when a California State Superior Court Family Law Judge can make an
ORDER that a Party and Non-Parties to a Family Law Case must not videotape in a
public parking lot, violates the Constitutional Rights of the Party and non-Parties, in
the Court Case under the 1st Amendment of the United States Constitution?
3. WHETHER, Appellate Court erred by its decision that dismissed Appellant’s Case?
4. WHETHER, California Supreme Court Judge Tani G. Cantil-Sakauve erred and abused
her discretion by denying Appellant’s/Petitioner’s Petition to review her Case?
5. WHETHER, Appellate Court Assistant Deputy Clerk III Ben Haskett erred in
awarding “Respondent shall recover costs on appeal”?
6. WHETHER, Appellate Court Deputy Clerk David Welton erred in awarding
“Respondent to recover costs on appeal”?
7. WHETHER, Acting P.J. Robie erred in dismissing Appellant’s/Petitioner’s two
Appeals?
8. WHETHER, the Appellate Court (signed by Robie. Acting P.J.J erred in determining
that the orders appealed by Appellant/Petitioner were non-appealable?
9. WHETHER, Petitioner’s Constitutional 4th Amendment Rights were violated when
the Appellate Court finalized and erred by Assistant Deputy Clerk Ben Haskett

signed, instead of Andrea K. Wallin-Rohmann. and by ordering that “Respondent
shall recover costs on appeal” and thereby abused its discretion by issuing Defendant/
Appellant/ Petitioner an order to recover cost from Petitioner?
10. WHETHER, the Appellate Court Acting P.J. Robie erred and abused_his/her
discretion by determining and ordering that the Petitioner’s appeals were nonappealable?
11. WHETHER, Petitioner’s Constitutional 4th Amendment Rights were violated when
the Appellate Court finalized and erred by Deputy Clerk David Welton signed,
instead of Andrea K. Wallin-Rohmann. and by ordering that “Respondent shall
recover costs on appeal” and thereby abused its discretion by issuing Defendant/
Appellant/ Petitioner an order to recover cost from Petitioner?
12. WHETHER, Petitioner’s Constitutional 5th Amendment Rights were violated
when the Trial Superior Court of California Family Law Judge John P. Winn made an
ORDER that Petitioner/Party and Non-Parties to a Family Law Case must say specific
words, phrases, and statements of the Judge’s choosing and the Judge’s specific
chosen topics, or Petitioner could be criminally and or civilly charged?
13. WHETHER, Petitioner’s Constitutional 9th Amendment Rights were violated
when the Trial Superior Court of California Family Law Judge John P. Winn made
an order restricting Petitioner from exercising her previously stated Constitutional
Protected rights to videotape in a public parking lot?
14. WHETHER, Petitioner’s Constitutional 14th Amendment Rights to Due Process
were violated when the Trial Superior Court Judge John P. Winn treated Black

Petitioner Carina Conerly less favorably than Filipino Respondent Sharif Tarpin
during Court Proceedings (e.g., when Judge Winn allowed Respondent Sharif Tarpin
to file meritless Ex Parte hearing, when Judge Lauri Damrell allowed Respondent
Sharif Tarpin to show up in Court over an hour late, when Judge James M. Mize
continued a Domestic Violence Hearing to another date when Respondent Sharif
Tarpin did not show up, when all the judges allowed Respondent Sharif Tarpin to
proceed when he has not served Petitioner Carina Conerly, when clerks and judges
would not allow Petitioner Carina Conerly to present all her evidence against
Respondent Sharif Tarpin)?

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
RELATED CASES
• Case No. 20-17029, D.C. No. 2:19-cv-01021 -KJM-KJN James Conerly, Carina Conerly,
Marilyn Tillman-Conerly, and M.T. v. Veracity Research Company, and Kristy Torain.
• Case No. 20-16679, D.C. No. 2:20-cv-00362-KJM-KJN Carina Conerly, and M. T. v.
Olubunmi Olaide Awoniyi, Uduak Inyang Oduok, Superior Court of California County of
Sacramento, Sharif Roldan Tarpin, and John Patrick Winn.
• Case No. 20-17118, D.C. No. 20:19-cv-01833-JAM-AC James Conerly, Carina Conerly, and
Marilyn Tillman-Conerly v. John Patrick Winn, Sharif Roldan Tarpin and Kiana R Turner.

iii

>

TABLE OF CONTENTS
OPINIONS BELOW.

1

JURISDICTION.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3
3-13

STATEMENT OF THE CASE

14-15

REASONS FOR GRANTING THE WRIT

15

CONCLUSION.

INDEX TO APPENDICES

APPENDIX A

Supreme Court of California Decision of Petition of review Denied

APPENDIX B

Third Appellate District Court of The State of California Decision NonAppealable Dismissal

APPENDIX C

Third Appellate District Court of The State of California Decision
Dismissal of request for reconsideration

APPENDIX F

Supreme Court Of California DOCKET (Register of Actions) CASE No.
S265069 from Appellate Court Case Information online

APPENDIX G

California 3rd Appellate District DOCKET (Register of Actions) (C092174)
from Appellate Court Case Information online

APPENDIX H

Superior Court Of California, County of Sacramento Docket List created by
Carina Conerly CASE No. 19FL05538 William R. Ridgeway Family
Relations

IV

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

STATUTES AND RULES
14th Amendment of the United States of America Constitution

ii-iii

9th Amendment of the United States of America Constitution

ii

5th Amendment of the United States of America Constitution
4th Amendment of the United States of America Constitution

i-ii

1st Amendment of the United States of America Constitution

l

OTHER

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[X] For cases from state courts:
The opinion of the highest state, California Supreme Court to review the merits appears at
Appendix A to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the Court of Appeal of the State of California, in and for The Third
Appellate District to review the merits, appears at Appendix B to the petition and is
[ ] reported at________________________________________ ; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.

1

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
[X] For cases from state courts:
The date on which the highest state court decided my case was November 24.2020
A copy of that decision appears at Appendix A .
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
14th Amendment of the United States of America Constitution
9th Amendment of the United States of America Constitution
5th Amendment of the United States of America Constitution
4th Amendment of the United States of America Constitution
1st Amendment of the United States of America Constitution
STATEMENT OF THE CASE
On October 16, 2019 Sharif Tarpin filed a Request for Order and a Petition to Establish
Parental Relationship in which he did not request Child Support. However, The Petition
to Establish Parental Relationship on page 2 states the following: The court may make
orders for support of the children and issue an earnings assignment without further notice
to either party.
On November 5,2019 Carina Conerly Filed a Request for Domestic Violence
Restraining Order against Sharif Tarpin requesting Child Support and providing the
needed FL-155, Financial Statement (Simplified).
On November 6,2019 the William R. Ridgeway Family Relations Courthouse filed DV110 Temporary Restraining Order, granting restraining order for Carina Conerly and
M.T. but in section 13 Child Support: Not Ordered now but may be ordered after a
noticed hearing.
On November 12,2019 Sharif Tarpin was served by the Sheriff’s Civil Bureau the
Domestic Violence Restraining Order Paperwork and the Temporary Restraining Order.

3

On November 13, 2019 Carina Conerly went and picked-up from the Sheriffs Civil
Bureau, the paperwork for the Request for Order and a Petition to Establish Parental
Relationship that Sharif Tarpin filed.
On November 25, 2019 the Domestic Violence Restraining Order Case was heard by
Joginder Dhillon who told Carina Conerly that the Child Custody and Child Support
would be addressed during Mediation scheduled for November 26, 2019. He also ruled
that the Court finds that there is not sufficient evidence to support the granting of the
Domestic Violence Restraining Order, refusing to view harassing text messages sent to
Carina Conerly from Sharif Tarpin, witnesses of Sharif Tarpin’s drug abuse and
destructive character, Sharif Tarpin’s numerous traffic tickets and Sharif Tarpin’s
Misdemeanor Case, and vacated the orders of the temporary restraining order that was
granted on November 6, 2019. William R. Ridgeway Family Relations Courthouse did
not have a Court Reporter at the Domestic Violence Hearing.
On November 26,2019 Mediation took place but would not address Child Support.
Carina Conerly was told the focus of Mediation was on Child Custody by the Mediator
Nora Williams. Nora Williams also refused to see nor take into account any evidence
Carina Conerly had against Sharif Tarpin including his Felony that Sharif Tarpin pled No
Contest to, was reduced to a Misdemeanor, and then completely dismissed by the State of
California, involving Sharif Tarpin carrying a concealed 40 Caliber Glock within his
vehicle without a Concealed Weapons License or Permit. Carina Conerly was then
scheduled for a Custody Hearing on December 17, 2019 at 9:00AM. On Carina Conerly’s

4

Responsive Declaration to Request for Order filed on December 12, 2019, Carina
Conerly again requested Child Support.
On December 12,2019 Carina Conerly filed her Order on Court Fee Waiver for the
Superior Court at William R. Ridgeway Family Relations Courthouse.
On December 17,2019 the Child Custody case was heard by Lauri Damrell who
provided Custody Orders and Visitation Orders and adopted the Mediator’s
recommendations granting all of Sharif Tarpin’s requests. Lauri Damrell did not address
Child Support Orders even after Carina Conerly requested. No Court Reporter was
present. Instead, the case was set for Trial on February 14, 2020 at 8:30AM.
On December 17,2019 the United States District Court Eastern District of California
issued a Summons in a Civil Case on Case Number: 2:19-cv-02535-JAM-DB that lists
Sharif Roldan Tarpin, Superior Court of California County of Sacramento, Joginder
Dhillon, Lauri Damrell, Nora Williams, numerous California State Agencies, California
Employees, and affiliates of the State of California as Defendants and Carina Conerly as
one of the Plaintiffs.
On December 19, 2019 Nora Williams, June D. Coleman, Lauri Damrell, Joginder
Dhillon, and Superior Court of California County of Sacramento was served the
Summons in a Civil Case and Complaint for Case Number: 2:19-cv-02535-JAM-DB at
the Office of the Attorney General for California.
On December 20, 2019 Sharif Roldan Tarpin was served the Summons in a Civil Case
and Complaint for Case Number: 2:19-cv-02535-JAM-DB at his Western Dental job.

5

On December 24, 2019 Carina Conerly received from the State of California Health and
Human Services Agency, Child Support Representative, Melody Bayless that Sharif
Tarpin has asked them to Open/Reopen a child support case for M.T. and to return the
FL-155 form to them. However, Sharif Tarpin has never requested Child Support. Carina
Conerly had already provided the FL-155 on this case with the Domestic Violence
paperwork on November 5, 2019.
On December 27, 2019 Nora Williams, June D. Coleman, Lauri Damrell, Joginder
Dhillon, and Superior Court of California County of Sacramento was served a second
time the Summons in a Civil Case and Complaint for Case Number: 2:19-cv-02535JAM-DB at the Judicial Council of California.
On January 14,2020 Carina Conerly called both Phillip Veres at (916) 875-7328 and
Melody Bay less at (916) 876-1224 and left voicemail messages that she had already
requested Child Support and provided the FL-155 on Case Number 19FL05538.
On January 16,2020 Carina Conerly received a Notice Regarding Payment of Support
from Melody Bayless, stating that the local child support agency, Sacramento, is the
substituted payee for the current child support, child support arrears, and medical support
on Case Number: 19FL05538.
On January 23,2020 Carina Conerly received a Proof of Service for the Notice
Regarding Payment of Support-Substitution of Payee from Sacramento County
Department of Child Support Services.

6

On January 29, 2020 Carina Conerly filed a Request for Recusal at the Superior Court of
California County of Sacramento with Deputy Clerk, C. Brown, and Joginder Dhillon
Present telling Deputy Clerk, C. Brown, to file and endorse the Request for Recusal.
On February 14,2020 Bunmi Awoniyi denied the recusal and assigned the trial to
Department 120, Judge John P. Winn.
On February 14,2020 the Custody Trial was heard by John P. Winn, in which again
Carina Conerly asked for Child Support Orders and no Child Support Orders were given.
Carina Conerly also provided 298 pages of evidence including Exhibits A through
MMMM, several videos of Sharif Tarpin’s conduct, and three witnesses. On Exhibit A
was the Request for Recusal filed in the Superior Court of California County of
Sacramento on January 29, 2020 with Joginder Dhillon present at the filing counter with
the Deputy Clerk C. Brown who endorsed the filing. On Exhibit B was the United States
District Court Eastern District of California Summons in a Civil Case on Case Number:
2:19-cv-02535-JAM-DB that lists Sharif Roldan Tarpin, Superior Court of California
County of Sacramento, Joginder Dhillon, Lauri Damrell, Nora Williams, numerous
California State Agencies, California Employees, and affiliates of the State of California
as Defendants and Carina Conerly as one of the Plaintiffs. On Exhibit MMMM was the
United States District Court Eastern District of California Clerks Certificate of Entry of
Default for Sharif Roldan Tarpin on Case Number: 2:19-cv-02535-JAM-DB. John P.
Winn gave a parenting plan for visitation and custody violating Carina Conerly’s
Constitutional Rights and favoring Sharif Tarpin’s requests. William R. Ridgeway
Family Relations Courthouse did not provide a Court Reporter for the Custody Trial.
7

On February 18, 2020 the United States District Court Eastern District of California
issued a Summons in a Civil Case for Case Number: 2:20-cv-00362-KJM-KJN that lists
Sharif Roldan Tarpin, Superior Court of California County of Sacramento, John Patrick
Winn, Uduak Inyang Oduok, and Olubunmi Olaide Awoniyi as Defendants in the case
and Carina Conerly as one of the Plaintiffs.
On February 18, 2020 Sharif Roldan Tarpin was served the Summons in a Civil Case
and Complaint for Case Number:2:20-cv-00362-KJM-KJN at the court ordered Exchange
location of 1429 Broadway Sacramento, CA 95818.
On February 19,2020 Superior Court of California County of Sacramento, Olubunmi
Olaide Awoniyi, Uduak Inyang Oduok, and John Patrick Winn were served Summons in
a Civil Case and Complaint for Case Number:2:20-cv-00362-KJM-KJN at the Judicial
Council of California.
On March 17,2020 Sharif Tarpin filed Request for Order for an Ex-Parte Hearing and
no Child Support was requested by him.
On March 24,2020 Carina Conerly filed in the Gordon D. Schaber Sacramento County
Courthouse Drop Box her Responsive Declaration to Request for Order to Sharif Tarpin’s
Request for Order and a Notice of Appeal because the William R. Ridgeway Family
Relations Courthouse was closed due to the Coronavirus and a sign at the William R.
Ridgeway Family Relations Courthouse said to go the Gordon D. Schaber Sacramento
County Courthouse to file paperwork. However, Gordon D. Schaber Sacramento County
Courthouse returned Carina Conerly’s paperwork stating that it must be resubmitted to
William R. Ridgeway Family Relations Courthouse, which was closed at the time.
8

On March 30, 2020 the Ex-Parte Hearing for Sharif Tarpin was cancelled due to
Coronavirus.
On March 30,2020 Carina Conerly filed a Notice of Appeal to the 3rd Appellate District
Court of Sacramento, California.
On May 5,2020 Carina Conerly received a Minute Order from John P. Winn at William
R. Ridgeway Family Relations Courthouse that the Ex-Parte Hearing was continued to
May 20, 2020 at 1:30PM.
On May 11,2020 Carina Conerly called the Sacramento County Child Support
Department and informed them that she had not received any child support. Carina
Conerly was informed that they were awaiting the Child Support Orders from William R.
Ridgeway Family Relations Courthouse. Carina Conerly informed them that William R.
Ridgeway never issued any Child Support Orders although she has repeatedly requested
them and she wanted to know what will happen, the Sacramento County Child Support
Department said they had to hear back from William R. Ridgeway Family Relations
Courthouse to proceed.
On May 12,2020 Carina Conerly filed a Responsive Declaration to Request for Order
with William R. Ridgeway Family Relations Courthouse requesting again Child Support
Orders, requesting recusal of the judge, showing proof of Sharif Tarpin committing
Perjury, and including in her exhibits the United States District Court Eastern District of
California Summons in a Civil Case for Case Number:2:20-cv-00362-KJM-KJN that lists
Sharif Tarpin, Superior Court of California County of Sacramento, John Patrick Winn,
Uduak Inyang Oduok, and Olubunmi Olaide Awoniyi as Defendants in the case.
9

On May 13, 2020 Carina Conerly filed a Request for Order including in her exhibits a
Notice of Appeal and the United States District Court Eastern District of California
Summons in a Civil Case for Case Number:2:20-cv-00362-KJM-KJN that lists Sharif
Tarpin, Superior Court of California County of Sacramento, John Patrick Winn, Uduak
Inyang Oduok, and Olubunmi Olaide Awoniyi as Defendants in the case.
On May 14,2020 James M. Mize heard the Ex-Parte Application for Emergency Orders
from Carina Conerly and it was denied. He told her to attend the Ex-Parte Hearing
scheduled for May 20, 2020 with John P. Winn
On May 20,2020 the Ex-Parte Hearing was heard by John P. Winn and Carina Conerly
asked for Child Support Orders and again no Child Support was given by John P. Winn
and no explanation as to why. Judge John P. Winn also modified the parenting plan for
visitation and custody in favor of Sharif Tarpin. This time Carina Conerly requested that
a Court Reporter be present at the Ex-Parte Hearing. Instead, the case was again referred
to Family Court Services for Mediation and another hearing/trial was scheduled for
August 4, 2020 at 9:00AM.
On June 18,2020 Carina Conerly filed a Notice of Appeal and a Request for A Court
Stamped Copy of Plaintiff s/Appellants’ Notice of Appeal at William R. Ridgeway
Family Relations Courthouse.
On June 25, 2020 Superior Court of California County of Sacramento served Carina
Conerly a Notice of Default for the June 18, 2020 Notice of Appeal filed and stated to
submit a proper Notice of Appeal (parties are incorrect on the notice). It also stated that
the Notice of Appeal was in Default for failure to file the sum of $100 plus $775.
10

However, there was already a fee waiver on file dated December 12, 2019 with the
William R. Ridgeway Family Relations Courthouse.
On June 30, 2020 Carina Conerly filed a Notice of Appeal/Cross-Appeal for judgment
entered on February 14, 2020. Another Court Fee Waiver was also filed at William R.
Ridgeway Family Relations Courthouse for Carina Conerly.
On July 10,2020 Carina Conerly filed her Parenting Plan Questionnaire including her
Notice of Appeal filed on June 30, 2020 and the United States District Court Eastern
District of California Summons in a Civil Case for Case Number:2:20-cv-00362-KJMKJN that lists Sharif Tarpin, Superior Court of California County of Sacramento, John
Patrick Winn, Uduak Inyang Oduok, and Olubunmi Olaide Awoniyi as Defendants in the
case.
On July 13,2020 Carina Conerly filed a Request for Domestic Violence Restraining
Order for injuries on M.T. during her visitation time with Sharif Tarpin on July 11, 2020.
On July 16, 2020 the Domestic Violence case was heard by James M. Mize and
continued to August 25, 2020. Sharif Tarpin did not attend the hearing although, he was
properly served.
On July 16,2020 Carina Conerly filed Appellant’s Notice Designating Record on
Appeal.
On July 28,2020 Carina Conerly attended a separate Zoom Mediation appointment with
Mediator Marisela Bermudez who ignored all of Carina Conerly’s evidence against
Sharif Tarpin and agreed with all of Sharif Tarpin’s requests.

11

On August 3,2020 Carina Conerly filed a Motion for Peremptory Challenge and Order
of Transfer with William R. Ridgeway Family Relations Courthouse.
On August 4,2020 Carina Conerly and Sharif Tarpin attended a Zoom Hearing with
John P. Winn who continued the custody hearing to August 26, 2020 combining it with
the Domestic Violence Hearing and vacating the August 25, 2020 hearing scheduled by
James M. Mize on July 16, 2020.
On August 7,2020 John P. Winn denied the Peremptory Challenge.
On August 10,2020 Carina Conerly filed a Notice of Appeal.
On August 11, 2020 Carina Conerly filed for a fee waiver.
On August 17,2020 Carina Conerly’s fee waiver was granted.
On August 21,2020 the Third Appellate District Court of Appeal Dismissed the Appeal.
On August 25, 2020 Carina Conerly filed her Appeal Reconsideration with the Third
Appellate District Court of Appeal.
On August 26, 2020 Carina Conerly and Sharif Tarpin attended a Zoom Hearing with
John P. Winn who denied the recusal, denied the restraining order, and ordered another
parenting plan for custody and visitation that again violated Carina Conerly’s
Constitutional Rights.

12

On September 8, 2020 the Third Appellate District Court of Appeal Denied the Request
for Reconsideration and Dismissed the Appeal filed on June 18 and Denied the Appeal
filed on June 30, 2020.
On October 19, 2020 Petitioner Carina Conerly filed her Petition For review in the
California 3rd District Appellate Court.
On October 23,2020 Petitioner Carina Conerly filed a change of her phone number.
On November 24, 2020 the California Supreme Court Denied Appellant/Petitioner’s
Request for Review.
On June 3, 2021 NOW COMES Petitioner to respectfully submit and file for the United
States Supreme Court to grant Petitioner’s PETITION FOR A WRIT OF
CERTIORARI.

13

REASONS FOR GRANTING THE PETITION
Under Article III, Section II the United States Supreme Court establishes the
jurisdiction (legal ability to hear a case) cases involving points of Constitutional and, or,
Federal Law, such as the case at hand involves issues of Civil Rights Violation.
Furthermore, that jurisdiction of this Court takes in Cases concerning State Courts
violating well established laws governing Constitutional Right to Due Process
controversy concerning equal rights within the Courts, right to litigate, Federal Lower
Courts Judges and staff differential treatment of Black Americans, even joining with the
Non-Blacks in providing defense in favor of the Non-Black. This is done by such means
of unjustly granting Non-Black Americans Dismissals of Black Americans Cases;
unwarranted and wrongful jurisdictional rulings and orders that were done in the “best
interest of Respondent Sharif Tarpin, rather than minor M.T. (e.g., allowed respondent
Sharif Tarpin to interrupt during hearings but the Judge would not let Petitioner finish her
testimony The Judge was leading answers and statement (e. g. lead by Judge Winn after
asking Respondent the question, court’s staff assisted Respondent Sharif Tarpin with
processing legal documents, Respondent Sharif personal stated the Judges and policemen
were acting in his favor). These techniques are also very sophisticated, well financially
funded, well planned, and etcetera, by the local government (federal and state,).
Unfortunately, SYSTEMIC RACISM is a proper representation of these acts of the local
government Judicial System upon Black American Petitioner Carina Conerly trying to
get redress of wrongful injuries and damages brought by others, with the MAJOR ISSUR
BEING THE VIOLATING DEFENDANT’S/APPELLANT’S/PETIONER’S RIGHTS
14

TO JUSTICE AND EXERCISE HER CONSTITUTIONAL DUE PROCESS RIGHTS.
Moreover, the covert tactics of hiring Africans into the Courts has been and still is a
method the local judicial system that is used to continue to avoid hiring Black Americans.
These covert and highly systemic techniques are but a few mentioned because they are
growing more and more and looking from outside of these systems makes these acts not
hard to discover, but victimized within, makes it hard to believe that outsiders do not see
the corruption.
CONCLUSION

With respect giving to the United States Supreme Court, Court's Officers, Court’s Staff and
Others that are involved in handling of this case, the Petition for a Writ of Certiorari should be
granted.
Respectfully submitted
Carina Conerly
Date:

(7

June 3.2021

15

